TI

C@OCKLE

2311 Douglas Street Le ga 1 B rie fs E-Mail Address:

Omaha, Nebraska 68102-1214

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 Ne.

CYNTHIA MADEJ AND ROBERT MADE],
Petitioners,
v.
JEFF MAIDEN, ATHENS COUNTY ENGINEER,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 21st day of August, 2020, send out
from Omaha, NE | package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
DAVID T. BALL FAZEEL S. KHAN
Counsel of Record HAYNES, KESSLER, MYERS
ROSENBERG & BALL CO., LPA & POSTALAKIS, INC.
205 South Prospect St. 300 W. Wilson Bridge Rd.
Granville, OH 43023 Suite 100
614-316-8222 Worthington, OH 43085
dball@rosenbergball.com 614-764-0681

fazeel@ohiolawyersgroup.com

Counsel for Petitioners

Subscribed and sworn to before me this 21st day of August, 2020.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

ener Kevee. 0. Liao? Ondo ht. Chala

Notary Public

‘My Comm. Exp. September 5, 2023

 

 

Affiant 40044
Maribeth Meluch, Esq.
mmeluch@isaacwiles.com

Molly Gwin, Esq.
mgwin@isaacwiles.com

Isaac, Wiles, Burkholder & Teetor, LLC
Two Miranova Place, Suite 700
Columbus, Ohio 43215

(614) 221-2121

Counsel for Respondent Jeff Maiden, Athens County Engineer
